<html>
<title> - U.S. POLICY OPTIONS IN THE SOUTH CHINA SEA</title>
<body><pre>[Senate Hearing 114-725]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-725
 
                         U.S. POLICY OPTIONS 
                         IN THE SOUTH CHINA SEA

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON EAST ASIA, THE
                       PACIFIC AND INTERNATIONAL
                          CYBERSECURITY POLICY
                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                            JULY 13, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov
                        
                        
                        
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-231 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
                        
                        
                        
                        


             COMMITTEE ON FOREIGN RELATIONS               

             BOB CORKER, Tennessee, Chairman              

JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


               Todd Womack, Staff Director              
         Jessica Lewis, Democratic Staff Director              
           Rob Strayer, Majority Chief Counsel              
         Margaret Taylor, Minority Chief Counsel              
                 John Dutton, Chief Clerk              



                         --------              




   SUBCOMMITTEE MEMBERSHIP SUBCOMMITTEE ON EAST ASIA, THE 
                         PACIFIC              
          AND INTERNATIONAL CYBERSECURITY POLICY              

             CORY GARDNER, Colorado, Chairman              

JAMES E. RISCH, Idaho                EDWARD J. MARKEY, Massachussetts
MARCO RUBIO, Florida                 JEFF MERKLEY, Oregon
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Gardner, Cory, U.S. Senator From Colorado........................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2
    Prepared statement...........................................

Blair, Admiral Dennis C., chairman and CEO, Sasdawa Peace 
  Foundation, former Commander, U.S. Pacific Command, Washington, 
  DC.............................................................     4
    Prepared statement...........................................     6
Campbell, Hon. Kurt M., chairman, Center for a New American 
  Society, former Assistant Secretary of State, Bureau of East 
  Asian and Pacific Affairs, Washington, DC......................    10
    Prepared statement...........................................    12




                             (iii)        

  


                          U.S. POLICY OPTIONS 
                         IN THE SOUTH CHINA SEA

                              ----------                              


                        WEDNESDAY, JULY 13, 2016

                               U.S. Senate,
       Subcommittee on East Asia, the Pacific, and 
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:32 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Present: Senators Gardner, Rubio, Johnson, Flake, and 
Cardin.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order. Let me 
welcome you all to the seventh hearing of the Senate Foreign 
Relations Subcommittee on East Asia, the Pacific and 
International Cyber Security Policy for the 114th Congress, and 
our second hearing in 2016.
    Thank you both for being here.
    I want to thank Ranking Member Cardin, and, of course, for 
his work on the full committee as well. It is a heavy schedule 
that you are carrying, so thank you, and thanks for your 
cooperation as we continue to look into these important issues 
and the work we are doing together on this subcommittee. This 
subcommittee has been very productive on a lot of great work 
that we have been able to do together, so thank you, Senator 
Cardin, for that.
    We have a full slate this morning with a full committee 
hearing on nominees to follow at 11:30. I hope everybody stays 
for that. I know there is a lot of family here as well, so 
thank you and welcome to the committee. So I will keep my 
opening remarks short on the first half of this hearing.
    Today's hearing at 10:30 discusses the issues concerning 
the South China Sea and comes on the heels of a very important 
ruling that could reshape the Asia-Pacific region and global 
security in general.
    Yesterday, an international tribunal issued an important 
ruling in favor of our allies the Philippines and against the 
People's Republic of China. The panel ruled that China breached 
the sovereign rights of the Philippines with regard to the 
maritime disputes between those two nations and invalidated 
China's sovereignty claims over almost the entirety of the 
South China Sea called the nine-dash line.
    In the last several years, China has significantly upped 
the ante and undertaken a massive effort to reclaim a number of 
disputed features in the South China Sea and to militarize 
these features. According to the Department of Defense, since 
Chinese land reclamation efforts began in December 2013, China 
has reclaimed more than 2,900 acres of land and has deployed 
artillery, aircraft, runways, and buildings, and positioned 
radars and other equipment.
    While the United States is not directly a party to this 
dispute and takes no position on the sovereignty claims among 
the various claimants, this ruling is important to our national 
security for several reasons.
    First, the South China Sea is one of the most strategically 
important commercial waterways in the world. Almost 30 percent 
of the world's maritime trade transits the South China Sea 
annually, including approximately $1.2 trillion in shipborne 
trade and shipborne trade bound for the United States.
    Second, the ruling reinforces the rights of our military to 
operate freely in the region, utilizing our longstanding 
international rights of innocent passage and transit on the 
high seas, the rights long-established by international law.
    Since October 2015, the United States Navy has conducted 
three freedom of navigation operations in the area to assert 
these very rights and to challenge China's groundless 
sovereignty claims.
    Last month, I attended the Shangri-La Dialogue, along with 
a number of my colleagues, and we heard a tremendous amount of 
concern from regional leaders not only about the South China 
Sea, but also whether the United States can endure as a 
regional and global leader.
    There should be no mistake, the South China Sea and what 
happens there is, thus, an important test of American 
leadership and our ability to support our close allies in the 
face of aggression that is outside of international norms.
    So today we have two very highly distinguished former 
officials, Admiral Blair and Dr. Campbell, to help us gauge the 
latest developments in U.S. policy options following the 
ruling.
    With that, I would like to recognize the distinguished 
ranking member for his comments, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Chairman Gardner. It is a 
pleasure to work with you on this subcommittee. Your leadership 
has been very much important for our national security and 
raising the importance of the Asia-Pacific area to U.S. 
interests. So I thank you. And, of course, the maritime 
security issues are very much part of that.
    I am going to abbreviate my statement and put it in for the 
record.
    But let me start by quoting from the Baltimore Sun 
editorial this morning, because you raised a very good point, 
and that is the ruling under the tribunal is not unexpected. 
China's claims are hard to understand under the rule of law. 
The United States, as you point out, takes no position in 
regards to the legal claims, but we do take a strong position 
against unilateral action and to use rule of law and diplomacy 
to resolve these issues. And we will not only continue to 
promote that policy, but we also have legal commitments with 
other countries as they relate to those commitments, and we 
also have our rights in regards to navigation on China seas.
    So China has to make a decision. They have to make a 
decision as to whether they are going to adhere to the rule of 
law and be a world leader with great respect or whether they 
are going to go their own course.
    So the Baltimore Sun said this morning China's immediate 
response was to double down on its stance, and officials have 
been holding out the threat of military maneuvers for months. 
In the long run, the country and the world would be better off 
if China took this chance to show it can, indeed, be a good 
global neighbor and leader.
    And I could not agree more. Thirty years ago, we were 
debating whether or not China would rise to be a major power. 
Well, they are a major power. There is no question about that. 
What kind of power are they going to be?
    To me, this is their key test and key moment. Will China 
help to support peace and stability in Asia? Will they seek to 
overturn the order? Will China become a trade partner committed 
to enforcing international law? Or will it see 19th century 
behavior and the flouting of international norms? Will China 
open up its conduct, allowing its people to express their 
views? Or will they continue down a path of repression?
    These are issues that I think are very much tied to how 
they respond to the tribunal decision.
    The last point I would make, Mr. Chairman, I was asked a 
question this morning whether we are somewhat hypocritical in 
criticizing China since we are not a member of the Law of the 
Sea Treaty.
    I think we should be a member of the Law of the Sea Treaty. 
I think it would help the United States. We have had hearings 
before this committee where it is lopsided with our generals 
saying it is important to our national security. We have the 
Arctic areas that are opening up more and more navigable 
rights, and we are not at the table, the only Arctic country 
not to be a party to the Law of the Sea. We disadvantage 
American businesses who need the mineral rights on the seabeds.
    We should be a member. But America stands for the rule of 
law, and we will continue to stand up for the rule of law, and 
we will continue to pursue our claims under the rule of law. 
And we have an obligation to point out that China must adhere 
to the rule of law, if it is going to have credibility 
internationally on these issues.
    [Senator Cardin's prepared statement follows:]

       Prepared Statement Submitted by Senator Benjamin L. Cardin

    Mr. Chairman, thank you for calling today's timely hearing to 
discuss US policy options in the South China Sea. And I thank our 
witnesses, Dr. Campbell and Admiral Blair, for joining us today to 
share their wisdom, insight and perspective. We could not ask for two 
better witnesses to help us think through these issues, both the 
immediate tactical questions and considerations and the broader 
strategic landscape.
    Yesterday, as you know the long-awaited ruling by the arbitral 
tribunal in the case of The Republic of Philippines v. The People's 
Republic of China was delivered. I believe that this ruling--and how 
the regional and international community reacts--represents a watershed 
moment for the region and the world, reinforcing efforts to build a 
rules-based order and the sort of regional architecture that supports 
stability and prosperity in the region and the world.
    As I said yesterday, the ruling is binding on both parties 
involved. And it is my hope that they will abide by the ruling. The 
choices of the Philippines, China and other members of the regional 
community with regards to the ruling will in large measure determine 
whether or not the Asia-Pacific region is to be guided by international 
law, institutions, and norms.
    I believe the ruling is a good precedent for other South China Sea 
claimants to seek resolution of maritime disputes through peaceful 
means, whether through diplomatic processes among the parties or 
through third-party mechanisms such as arbitration.
    Although the United States is not a claimant in the South China Sea 
and takes no position on competing maritime and territorial claims, we 
do have a position on how the claims are adjudicated, and how questions 
related to the different features--reefs, rocks, shoals and islands--
are classified under international law. We must continue to be clear 
and consistent in our policy to oppose unilateral actions by any 
claimant seeking to change the status quo through the use of coercion, 
intimidation, or military force, engaging in land reclamation 
activities on disputed features in the South China Sea, or the 
militarization of any reclaimed features.
    In keeping with the international law of the sea as reflected in 
the Law of the Sea Convention, we expect that the United States 
military will continue to fly, sail, and operate wherever international 
law allows, both in the South China Sea and elsewhere around the world.
    The ruling also underscores the need for the Senate to take action 
to ratify the 1982 Convention on the Law of the Sea. As we seek to work 
with our partners in the region to construct a twenty-first century 
architecture for the governance of Asia's maritime domains consistent 
with international law, the United States cannot, and should not, risk 
marginalization by remaining on the outside of this critically 
important global agreement.
    This is particularly important as we consider not just the 
immediate issues surrounding the arbitral ruling, but also the broader 
strategic issues at play with the ``rise of China.'' Thirty years ago 
we were debating whether or not China would rise to be a major power. 
That debate is now settled. But the question of what sort of power 
China will be remains uncertain.
    Will China help to support peace and stability in Asia? Or seek to 
overturn the order? Will China become a trade partner committed to the 
enforcement of international law? Or will we see 19th century 
mercantilist behavior and the flouting of international norms? Will 
China open space for its citizens to express their own views and ideas? 
Or will it continue to brutally repress its own people?
    We may not yet know all the answers to the question of what sort of 
China is emerging as a major power on the international stage. But we 
are starting to receive some answers to some of these questions--
including, now, how China will react to the tribunal ruling.
    Despite its negative rhetoric rejecting the arbitral process over 
the past several months, with a ruling now made, will China respect its 
terms? Or will it ignore it, or worse, seek to undermine it, posing a 
serious challenge to the idea of international law, norms, and 
institutions in the Asia-Pacific? Will China seek to work with ASEAN on 
maritime security issues and build regional architecture, or will it 
seek to ``break'' ASEAN, and take-down the structures and institutions 
that are vital to regional peace and stability.
    Quite frankly, I am more than a little concerned by what we have 
seen thus far. China has thus far stated, repeatedly and vociferously, 
that it will disregard the tribunal ruling. And, in its regional 
diplomacy, it has sought to bend and break the functioning of ASEAN.
    In doing so it has elevated this case into a test for the regional 
and international community: If the arbitral ruling is disregarded and 
not upheld by China or the states of the region, if the Law of the Sea 
is tossed onto the trash-heap, and if China breaks the functioning of 
one of the world's most successful regional organizations--an 
organization whose very existence correlates with the end of 
interregional war in Southeast Asia--it will be a grave blow to the 
international system and the regional order.
    China's provocative actions in the South China Sea, in particular, 
its aggressive island-building campaign and the tacit militarization of 
these features threaten not just regional stability but also long-
standing U.S. interests in the free-flow of commerce, freedom of 
navigation--and in the peaceful diplomatic resolution of disputes 
consistent with international law.
    More than half of the world's annual merchant fleet tonnage and a 
third of all global maritime traffic passes through these chokepoints. 
The oil transported through the Malacca Strait from the Indian Ocean 
and through the South China Sea is triple the amount that passes 
through the Suez Canal and fifteen times the amount that transits the 
Panama Canal.
    Given our profound national security interests in the free flow of 
commerce and freedom of navigation, we have a deep and abiding interest 
in how claims are dealt with, and how international law applies to high 
tide and low tide elevations and the territorial and economic claims 
that flow from how these features are defined.
    Earlier this year, Senator Gardner and I introduced the Asia-
Pacific Maritime Security Initiative Act of 2016, which builds on the 
Administration's Maritime Security Initiative and provides the 
Department of State and Defense with the strategic context and 
resources they need to take clear and concrete measures to support a 
rules-based order for the Asia-Pacific region.
    So I look forward to today's testimony, and to having the 
opportunity to discuss with our witnesses their views on China's 
broader strategic orientation, as well as more specific and concrete 
questions relating to US policy options as we think through the issues 
at play with maritime security in the South China Sea.
    Thank you.


    Senator Gardner. Thank you, Senator Cardin. For the 
information of the witnesses and the attendees here today, 
there is a vote scheduled for 11 o'clock. We will continue the 
hearing during the vote. We will just have people go back and 
forth to the vote and take over the hearing.
    I would kindly ask the witnesses to keep their remarks to 5 
minutes. Your full statements will be entered into the record.
    Our first witness is Admiral Dennis Blair, who currently 
serves as chairman of the board and CEO of the Sasakawa Peace 
Foundation USA. During his distinguished 34-year Navy career, 
Admiral Blair served on guided missile destroyers in both the 
Atlantic and Pacific fleets, and commanded the Kitty Hawk 
battle group.
    From 1999 to his retirement from the Navy in 2002, Admiral 
Blair served as Commander in Chief to the U.S. Pacific Command, 
the largest of the combatant commands. As Director of National 
Intelligence from January 2009 to May 2010, Admiral Blair led 
16 national intelligence agencies, managed a budget of $58 
billion, and provided integrated intelligence support to the 
President, Congress, and operations in the field.
    Welcome, Admiral Blair. Thank you for your service to our 
Nation, and we look forward to your testimony.

    STATEMENT OF ADMIRAL DENNIS C. BLAIR, CHAIRMAN AND CEO, 
 SASAKAWA PEACE FOUNDATION USA, FORMER COMMANDER, U.S. PACIFIC 
                    COMMAND, WASHINGTON, DC.

    Admiral Blair. Thank you very much. It is good to be here, 
and it is good to turn on my talk button.
    Let me use my short oral remarks to describe the 
fundamental components of a successful American policy in the 
South China Sea, one that combines our diplomacy, our military 
activities, and our relations with the other countries in the 
region.
    What we see playing out now in East Asia is China's third 
attempt to expand its eastern and its maritime border.
    The first attempt, which has gone on for decades, has been 
to add Taiwan to its territory. This attempt has included some 
Chinese tactics that are now familiar to us: unyielding 
rhetoric; cartography, Taiwan is always shown as part of China 
on Chinese maps; international diplomatic competition. China 
goes around to other countries in the world to try to sign them 
up to recognize its claim and to reject Taiwan.
    The second attempt was the Senkaku Islands. Again, China 
used a variety of means to advance its claim and extend its 
maritime border: the use of its fishing fleet and its coast 
guard vessels, rather than its military and naval vessels; the 
use of offshore drilling rigs in disputed waters; punitive 
economic measures--cutting off the supply of rare earth metals 
to Japan.
    Chinese activities in recent years in the South China Sea 
represent the third attempt of China to extend its maritime 
borders, and they evolve a full array of past tactics, and it 
adds some new ones: naval blockades of vessels of other 
countries around disputed islands, land reclamation, the 
installation of logistics facilities that are potential 
military facilities.
    So what is going on in the South China Sea today is not new 
in concept for China or the region, but the geography, the 
number, the military inferiority of other claimants, and 
American history in the region make it all different and 
require a tailored policy from the United States. We need to 
fashion a response to Chinese aggression that supports our 
basic interests and is tailored to the circumstances.
    What has worked in the past to restrain Chinese aggression 
on its maritime border has been patient diplomacy along with 
the establishment of military deterrence.
    The Taiwan Relations Act provided a good blueprint for 
American actions on that first attempt by China to absorb 
Taiwan. It called for a buildup of Taiwan's own defense 
capability through assistance, American development of, and the 
demonstration of the ability to support Taiwan if called on; 
persistent diplomacy with China to emphasize other areas of 
relations and to make them understand the high cost of 
aggression in Taiwan.
    For the Senkakus, the same pattern has proved successful: 
cooperation with a strong ally, Japan; Japanese development of 
its own military capabilities to defend its interests; American 
declarations of support to Japan; persistent diplomacy by both 
Japan and the United States to keep overall relations with 
China as positive as possible, while emphasizing our interests.
    The South China Sea has similarities to these two earlier 
cases, but also important differences. The area is larger, 
there are more conflicting claimants, and they are much weaker 
than China. However, American policy should mix the same 
ingredients of diplomatic patience, support for allies and 
partners, and direct military protection of our own interests 
that has contributed successfully to stabilizing the other two 
regions.
    Now, until about a year ago, our policy was wandering. We 
chanted that we took no position on the territorial disputes 
themselves. We made few military deployments to the region. And 
we simply urged restraint on all parties. This feckless set of 
policies did nothing but encourage China to try to expand its 
influence.
    But even without a clear U.S. policy, China's aggressive 
moves were not very successful. Although China was expanding 
the capability of the islands it occupied in the region, they 
added very little to its military capability in the event of 
serious conflict. They had the effect of stoking suspicion and 
distrust of China, and sent these countries to the United 
States, Japan, and other more powerful countries for support. 
These countries offered the United States access to their bases 
and ports. None of these countries made any territorial 
concessions to China.
    Within the past year or so, we are seeing the emergence of 
a more robust American policy along the lines of what we have 
seen work previously. We made it clear that there are vital 
U.S. interests at stake, namely our ability to operate air and 
naval forces freely in the region.
    We have peacefully deployed significant military forces 
there. We have started to provide support to other claimants in 
the region, the Philippines and Vietnam.
    The policy component that is lacking is the establishment 
of our bottom line. That is, we have not made it clear where we 
stand on any of the territorial claims of China and the other 
parties. Until we do, it will be difficult to relate our 
military deployments to our overall foreign policy and 
diplomatic objectives.
    I believe that the issue on which we can clearly draw a 
bottom line would be at Scarborough Shoal, where we should make 
it clear that the U.S. will support the Philippines to oppose 
Chinese aggression, if necessary, by military force.
    The decision yesterday of the Permanent Court of 
Arbitration has provided a clear legal foundation for the 
United States to take a position.
    I would also add, echoing Senator Cardin, that the decision 
makes it very clear that the U.N. Convention on the Law of the 
Sea is very much in the American interests, and I hope that 
this committee can move it forward again.
    Our objective is not to pick a fight with China, not to 
contain it, but simply to set credible limits to Chinese 
military coercion, to encourage it to pursue its objectives by 
peaceful means. No matter what decisions are made, China will 
remain powerful in the region.
    Peace in East Asia has been a tremendous benefit both to 
the United States and to countries there, including China, and 
it will take smart and persistent American policies to maintain 
it.
    Thank you.
    [Admiral Blair's prepared statement follows:]

                 Prepared Statement of Dennis C. Blair

    Chairman Gardner, Ranking Member Cardin, and members of the 
Subcommittee, thank you for the opportunity to testify before you 
today.
           1. history of america's involvement in the region.
    For much of its history, the U.S. armed forces have operated 
actively and freely in the South China Sea, as well as other areas in 
East Asia. Sometimes the actions have been independent and sometimes 
with friends and allies. The United States deployed its naval power 
into the South China Sea to defeat the Spanish fleet at Manila in 1898 
and liberate the Philippines from Spain; later that year American 
maritime forces captured Guam. During World War II, the United States 
Navy operated throughout the Pacific Ocean, including the South China 
Sea, to defeat Imperial Japan through a combination of economic warfare 
against Japanese supplies and recapture of the territory that Japan had 
occupied in the Asia-Pacific region. The United States Navy operated 
throughout the South China Sea, the East China Sea, the Yellow Sea and 
the Sea of Japan during the 1950s Taiwan crises and the Korean War. In 
the 1960s and 1970s American armed forces operated freely sometime in 
conjunction with allies, throughout the South China Sea during the 
Vietnam War. Since the end of that war in 1975, U.S. forces have 
operated freely and routinely throughout the region in support of 
treaty and partnership commitments and American interests, responding 
to crises such as the end of the Marcos regime in the Philippines in 
1986, in the Yellow Sea in 1994 and 2010, and around Taiwan in 1996. 
There have been numerous U.S. and allied military and civil deployments 
during this period in support of humanitarian objectives, from the 
evacuation of South Vietnamese refugees in 1975 through the response to 
the tsunami that devastated Aceh, Indonesia, in 2004, to the relief 
operations in the Philippines for super-typhoon Haiyan in 2013.
           2. traditional american interests and objectives.
    For more than one hundred years, the basic historical American 
objective in the Southeast Asia region has been to balance the 
influence of destabilizing countries and ideologies so that states in 
the region can develop independently and maintain good economic and 
political relations with the United States. Thus, the United States 
opposed attempts at regional aggression, both political and military, 
by Germany (1898-1919), Japan (1941-45), the Soviet Union (1963-75) 
and, more recently, China. Freedom of mobility and maneuver in oceans 
and international airspace has always been a core interest of the 
United States. The U.S. Congress authorized the Gulf of Tonkin 
Resolution in 1964 after U.S. warships were attacked on the high seas, 
and President Ford ordered U.S. Marines to free U.S. mariners on board 
SS Mayaguez in 1975, which was seized by Cambodia.
             3. current american interests and objectives.
    a. In addition to the traditional American policy of balancing the 
influence of destabilizing countries and opposing attempts at regional 
aggression, the United States maintains the following specific 
interests in the South China Sea and in surrounding areas:

          i. Defense treaty and legislative commitments with the 
        Philippines, Thailand, Australia, Republic of Korea, and Japan. 
        Legislation, the Taiwan Relations Act, mandates U.S. provision 
        of ``defense articles and services'' in response to aggression 
        against Taiwan.

          ii. ``Strategic Partnership'' agreements with ASEAN, 
        Singapore, India, and Vietnam.

          iii. A core interest in freedom of navigation and the 
        maintenance of naval mobility and maneuverability and access in 
        the all of the world's oceans, including the South China Sea. 
        Freedom of navigation is principally a naval and military 
        right, and includes innocent passage of warships in the 
        territorial sea, and the right of military aircraft and ships 
        to conduct archipelagic sea lanes passage through the 
        archipelagic states of Indonesia and the Philippines, transit 
        passage through straits used for international navigation, and 
        to exercise high seas freedoms and overflight throughout the 
        EEZ under article 58(2) and 87 of UNCLOS. Freedom of navigation 
        and naval and military access is the basis for American 
        continuous and transparent military exercises and other routine 
        activities in support of its own interests and its alliance and 
        partnership commitments, and for responses to crises in the 
        region that affect its interests. When American ships and 
        aircraft operate in the vicinity of those of other nations, 
        they observe, and expect others to observe, the Collision 
        Regulations and customary international law, which apply to 
        state vessels and civil shipping, and the Chicago Convention on 
        Civil Aviation and customary international law, which exempt 
        military aircraft from foreign jurisdiction and provide the 
        only mechanism for the lawful management of civil aircraft.

    b. The United States supports all mechanisms for peaceful dispute 
settlement in East Asia, including disputes involving the Korean 
Peninsula, Taiwan, Japanese island and maritime claims and the South 
China Sea. The United States welcomed the 2002 Declaration of Conduct 
and the pledges that all ASEAN countries and China will negotiate all 
disputes in good faith, and to refrain from actions that would make 
negotiation more difficult. The United States favors all peaceful means 
of dispute resolution, including bilateral and multilateral 
negotiation, mediation, arbitration, and adjudication (litigation). The 
compulsory dispute resolution process in UNCLOS is an ideal mechanism 
for resolving maritime disputes, especially after bilateral 
negotiations have failed. The United States opposes military aggression 
or coercion as a means to settle sovereignty or maritime disputes. When 
disputes have involved allies (ROK, Japan), or former allies (Taiwan) 
the U.S. has made military commitments to deter aggression. To this 
point, the United States has not invoked its treaty or partnership 
commitments to make military commitments in support of specific 
territorial positions in the South China Sea.
              4. america's vision for the south china sea.
    a. The United States supports strong, free, sovereign, independent, 
and prosperous states in the region of the South China Sea, free of 
coercion from powerful states.

    b. The United States supports the peaceful resolution of disputes 
and insists that all states, large and small, comply with their 
obligations under international law. Compliance with international law 
is a foundation for the peaceful, stable, and prosperous international 
system that benefits all states in Asia.

    c. International law reflects universal values, and the same rule 
of law applies to every country similarly situated. The ``rule of law'' 
means that law must be followed by the strong as well as the weak.

    d. The United States supports settlement of territorial disputes 
based upon adherence to the rule of law and application of accepted 
principles of international law and based upon transparent, documented 
and accepted historical facts. In areas with genuinely overlapping 
claims of equal strength and validity, the United States encourages 
joint development of resources, such as in the Vietnam-China zone in 
the Gulf of Tonkin.
        5. china's claims and activities in the south china sea
    For the past twenty years, China has steadily built up its air and 
maritime military forces in the vicinity of the South China Sea. It has 
consolidated its civil maritime forces into the State Ocean 
Administration, and has organized its fishing fleet in the South China 
Sea to act as a ``maritime militia,'' an auxiliary of its government 
maritime forces. It has claimed that virtually the entire South China 
Sea belongs to China, although it has not specified exactly what that 
claim entails. It has established an administrative governing body for 
the entire South China sea, issuing regulations that China claims 
governs the action of all states. China has sent an oil rig from a 
state-owned oil company to drill in waters claimed by Vietnam, it has 
virtually blockaded two islands claimed by the Philippines, and it has 
attempted to enforce its own fishing regulations in the Natuna Sea, 
well within Indonesia's EEZ. It has in the past several years 
undertaken major improvements of seven islands it had previously 
occupied, greatly enlarging them, and building runways, harbors and 
logistic facilities.
              6. china's diplomacy in the south china sea
    a. As it steadily built up its power and capability in the South 
China Sea, China's diplomatic approaches have alternated between 
moderate and reasonable contentions--publicly it favors peaceful 
negotiated solutions of differences with the other claimant states, 
however then issues truculent threats that it will make no concessions 
to the claims of others, and will use its power to enforce its claims. 
Under President Xi, its diplomacy has been relatively harsh and 
unyielding.

    b. China's hard line and aggressive action have been completely 
unsuccessful in gaining concessions from rival claimants in the South 
China Sea. On the contrary, the other claimants have all reached out to 
other countries for support, primarily to the United States. China has 
paid a heavy price for its aggressive activities in the hostility of 
the other claimant states and the strengthened American position in the 
region for the relatively minor gains it has made in island enlargement 
and naval coercion. Vietnam, the Philippines and Malaysia have all 
welcomed American military exercises using their bases. They have also 
strengthened their own military and maritime law enforcement 
organizations, although none of them is a match for China's, and they 
have been partially successful in forming a unified front against China 
in ASEAN.
7. effectiveness of american activities and policies in the south china 
                                  sea.

    a. The United States has taken advantage of China's heavy-handed 
and aggressive actions in the South China Sea to strengthen its 
bilateral relations, including its defense cooperation, with the other 
claimant countries. It is cooperating closely with the Philippines in 
maritime exercises, it has removed its prior prohibitions on the sales 
of lethal military equipment to Vietnam, and it routinely deploys 
surveillance aircraft to Malaysian bases. Both the United States and 
Japan are pursuing assistance programs to the air and maritime forces 
of the other claimant countries. China believes that the United States 
is orchestrating a sophisticated South China Sea strategy using China's 
rival claimants to constrain China's growing power in the region.

    b. The United States has not prevented Chinese enlargement of seven 
of the Spratly islands it occupies, and has not disrupted the Chinese 
blockade of Scarborough and Second Thomas Shoals. However, it has used 
military deployments to violate Chinese territorial sea and EEZ claims, 
and it has demonstrated decisively that it will not be deterred from 
exercising full freedom of maneuver for its military forces under its 
interpretation of the UN Convention on the Law of the Sea.
     8. potential improvements in american activities and policies.
    a. The primary weakness in the American strategy in the South China 
Sea is that it takes no position on the conflicting claims, while 
urging restraint and negotiation on all parties. Its military maneuvers 
in the region accomplish the purpose of maintaining the U.S. position 
that it will operate its military forces throughout the South China 
Sea. They provide no restraint on Chinese aggression against the claims 
of other countries, even when the Chinese claims are extremely weak. 
For the sake of time, I'll truncate my testimony and just read through 
a list of Chinese claims that are inconsistent with UN articles and 
UNCLOS; however I am happy to go into further detail about why these 
claims are unlawful during questioning:

          i. The unlawful invasion of the Paracel Islands in 1974, 
        which was a violation of the proscription against ``armed 
        attack'' against Vietnam, under article 2(4) of the Charter of 
        the United Nations.

          ii. Straight baselines along the coast of mainland China and 
        in the Paracel Islands. The straight baselines along the 
        Chinese coast are unlawful because they do not connect a 
        coastline that is deeply indented and cut into or a fringe of 
        island, that follows the general direction of the coast. The 
        straight baseline system in the Paracel Islands is unlawful 
        because China is not an archipelagic state and may not use 
        straight baselines to connect mid-ocean island groups 
        (analogous to the United States using straight baselines around 
        its mid-Pacific territories and the Hawaiian Islands). These 
        claims violate the rules on straight baselines in UNCLOS 
        articles 7, 13, and 47.

          iii. Claims to historic waters that do not comport with the 
        three-part test in international law as restated by the United 
        Nations in 1962: (1) exercise of authority over the waters; (2) 
        continuity of the exercise of authority; and (3) acquiescence 
        or acceptance by neighboring states. China's ``nine-dash line'' 
        claim does not pass this three-part test. Sovereignty over land 
        features may be claimed under international law only in five 
        circumstances: (1) accretion, that is a build-up through 
        natural geologic processes, such as a volcanic eruption, (2) 
        cession, or voluntary transfer via treaty, (3) conquest, but 
        only before adoption of the UN Charter in 1945, (4) occupation 
        of terra nullius, that is not mere inchoate discovery, but 
        actual occupation, and (5) prescriptive exercise of authority 
        that is public, peaceful and extending over a long period of 
        time. The burden of proof is on the claimant state to present 
        facts and law in support of the claim.

          iv. China's apparent claim of a territorial sea and other 
        sovereign rights and jurisdiction in the vicinity of its newly 
        constructed artificial islands, in violation of article 60. All 
        maritime claims derive from land territory: ``the land 
        dominates the sea.'' In accordance with UNCLOS and customary 
        international law, coastal state sovereignty over oceans is 
        limited to a 12-mile territorial sea, typically measured from 
        normal baselines running along the low water mark of the coast 
        of a rock, island or mainland. The United States rejects 
        conditions on innocent passage in the territorial sea in 
        violation of articles 19 and 21 of UNCLOS.

          v. Sovereignty claims within its EEZ. No state may claim 
        sovereignty over oceans or airspace beyond 12 miles of 
        territory. The coastal State enjoys certain specified, limited 
        and enumerated sovereign rights and jurisdiction in the EEZ 
        under Part V of UNCLOS, including exclusive rights to exploit 
        and develop natural resources, require consent for civilian 
        marine scientific research, and for offshore and seabed 
        installations related to those purposes. China illegally denies 
        high seas freedoms and other internationally lawful uses of the 
        sea associated with the operation of ships and aircraft in its 
        exclusive economic zone (EEZ) in violation of articles 58(2) 
        and 87. Coastal States may not claim any right to regulate the 
        airspace above the EEZ, or the operation of warships, military 
        activities, or military aircraft in the EEZ. China has hampered 
        other states from enjoyment of the exclusive right and 
        jurisdiction in their own EEZs in violation of UNCLOS article 
        56.

          vi. Chinese claims to the continental shelf of Japan in the 
        East China Sea and Vietnam and Malaysia in the South China Sea 
        in violation of its duties under article 83. Overlapping EEZ 
        and continental shelf claims shall be resolved by beginning 
        from an equidistant line between the two states and then making 
        equitable adjustments based upon the length of contiguity of 
        the opposing coastlines.

          vii. Chinese disruption of the laying of foreign submarine 
        cables and pipelines in its EEZ, in violation of articles 112 
        and 113 of UNCLOS and other legally binding instruments 
        relating to submarine cables on the continental shelf.

    b. The United States needs to decide which claims in the South 
China Sea it recognizes and which it does not, so that it can use its 
superior military force to set limits on Chinese aggression, as it has 
done in Taiwan, and in the Senkaku Islands in the East China Sea. It 
would be ideal if there were a multilateral adjudication of the 
conflicting claims in the South China Sea, since there are many 
disputed claims beyond China's. Such a multilateral adjudication should 
ideally be undertaken by the claimant countries themselves, with or 
without China's participation. However, even without such a 
comprehensive settlement, the United States should oppose some of 
China's most extreme claims, if necessary, by the use of military 
force. One of those extreme claims is Scarborough Shoal. China has no 
claim to this feature except for its bogus Nine-Dash Line map; it is 
much closer to the Philippines than to China; the United States used it 
for a bombing range for many years, and even paid the Philippines for 
its use. The United States should support Philippine opposition to 
further Chinese aggression against Scarborough Shoal using military 
force if necessary.

    c. The objective of American military opposition to China's 
aggressive actions in the South China Sea is not to contain China, but 
to encourage China to settle its claims with its neighbors in an 
equitable manner, rather than seeking always to expand its own local 
power through its superior local military and law enforcement forces. 
No matter which country owns which islands, China will be the greatest 
local power in the region, and will be able to operate its military 
forces freely throughout the region. However, it is in the American 
interest for China to negotiate a peaceful settlement of its 
conflicting claims with its neighbors and to observe that settlement.
     9. effect of the 12 july decisions of the permanent court of 
                              arbitration.
    The decision of the Permanent Court of Arbitration on July 12 was a 
significant defeat for China. The Court asserted its jurisdiction in 
the matters it decided, reminded China that as a party to UNCLOS, it 
was bound by the decision, and completely rejected the Nine-Dash line 
as a basis for Chinese claims to any waters of the South China Sea. 
While carefully avoiding opinions on sovereignty disputes about the 
ownership of the features in the Spratly Islands, the Court made it 
clear that the Philippines has jurisdiction over the marine and seabed 
resources of most of the Spratly Islands. The decision declared illegal 
China's actions to interfere with the fishing activities of the 
Philippines and other countries, its failure to prevent harmful fishing 
by its own fleet, its interference with Philippine exploration of 
hydrocarbon deposits, and the environmental damage done by the dredging 
around the islands it expanded.
    Most important will be China's considered reaction to the decisions 
of the Permanent Court of Arbitration. As a party to UNCLOS, China has 
no right to reject a ruling of the court. Should it do so, it will call 
into question China's adherence to any of the international treaties it 
has ratified. China will find it much more difficult to gain the trust 
of both its neighbors and other more distant countries with which it 
deals.


    Senator Gardner. Thank you, Admiral Blair.
    Our second witness is the Honorable Kurt Campbell, who 
currently serves as chairman of the board for the Center for a 
New American Security. From 2009 to 2013, he served as the 
Assistant Secretary of State for East Asian and Pacific 
Affairs, where he played a key role in developing this 
administration's pivot to Asia, or rebalance strategy.
    Dr. Campbell also briefly served as Deputy Assistant 
Secretary of Defense for Asia and the Pacific, and as director 
on the National Security Council staff. In 2013, Secretary 
Hillary Clinton awarded him the Secretary of State's 
Distinguished Service Award, the Nation's highest diplomatic 
honor.
    Dr. Campbell also served as an officer in the U.S. Navy 
Reserves, serving on surface ships, the Joint Chiefs of Staff, 
and the Chief of Naval Operations Strategic Advisory Unit.
    Welcome, Dr. Campbell, and thank you very much for being 
here. We look forward to your testimony today.

STATEMENT OF HON. KURT M. CAMPBELL, CHAIRMAN, CENTER FOR A NEW 
AMERICAN SECURITY, FORMER ASSISTANT SECRETARY OF STATE, BUREAU 
       OF EAST ASIAN AND PACIFIC AFFAIRS, WASHINGTON, DC.

    Dr. Campbell. Thank you very much. I would ask that my full 
testimony be submitted for the record, as you indicated.
    Senator Gardner. Without objection.
    Dr. Campbell. I also want to thank your excellent staff, 
who I think provide an enormous service to you and the Nation.
    I will say, just before we get started, if you will allow 
me, Senator Gardner, I actually think the most important thing 
in this hearing has already happened. And I just do not think 
people realize how much we appreciate the graciousness and 
respect with which you and Senator Cardin have interacted. It 
sends an enormous message of good will that is appreciated in a 
very divisive, difficult time.
    So I want to personally thank you for how you have run the 
committee. And I also want to thank you for coming out to 
Shangri-La and making clear American strategic commitment in 
the Asia-Pacific region.
    I also want to thank Admiral Blair, if I can, for his 
service and the opportunity to serve with him when he was 
serving on Hawaii. He taught me something very important. Once 
we were talking about something, and he turned to me and said, 
Kurt, sometimes it is better to ask forgiveness than 
permission. So it is something to keep in mind as we struggle 
bureaucratically occasionally.
    So, again, thank you very much for this opportunity. Very 
quickly, I will just make a couple quick points, because I know 
you are going to want to get to questions and answers.
    About the ruling itself, I think some elements of it were 
expected. But to be honest, it is much more resounding. It is 
much more decisive than I think any of us anticipated. Its 
unanimous quality, its very clear statement, about how to think 
about the South China Sea really invalidates virtually every 
aspect of Chinese claims around the nine-dash or previously the 
11-dash line.
    So I think I agree very much with what has been said in 
terms of this is an important statement of international law. I 
would also underscore not only have there been good statements 
from the United States, but many of our allies in other 
countries have chimed in to support this effort. I would draw 
your attention particularly to what the Australians have said 
most recently, in addition to other countries in Northeast 
Asia.
    I think this sends a very clear signal of warning and care 
to Chinese interlocutors as they contemplate next steps.
    I also just want to say, a lot of people say, well, how can 
you trace American strategic purpose in the world? Are there 
any constants? I would simply say to you, if you look at the 
issue of preservation of maritime commerce, freedom of the 
seas, freedom of navigation, the first use of American power 
abroad was in the Barbary pirates of the 17th century. You can 
draw a line from there to here of essentially what is going on 
in the South China Sea.
    There are others that would suggest, and I think Admiral 
Blair and you all, Senator Gardner and Senator Cardin, very 
forcefully made clear that this is not some distant backwater. 
This is a very important strategic waterway, in many respects 
more important than the Gulf of Hormuz, because it involves not 
only the transshipment of energy resources but also most of the 
manufacturing goods that are moving across Asia more generally.
    So in fact, no country has a greater interest in the peace 
and stability of that arena than China, in addition to the 
United States.
    This ruling in many respects is about a fundamental 
struggle that is ongoing in the Asia-Pacific region right now 
in which we play a key part. What the United States and other 
countries have done has created an operating system in Asia, 
right? And that operating system is composed of many facets: 
freedom of navigation, trade, peaceful resolution of disputes.
    It has benefited all the countries in the region, and it 
has led to the most dramatic period of economic growth in our 
history. That is a 21st century system that we seek to adapt 
and develop over time. It has been very good for every country, 
including China.
    Now what we have seen in China of late are some tendencies 
to want to go back to really a 19th century spheres of 
influence approach in which they demark arenas and areas as no-
go areas or belonging to them, as Admiral Blair has indicated. 
That is profoundly not in our interests and, I believe, 
fundamentally, are actually not in China's interests over the 
long term because it will undermine the very system that has 
led to enormous prosperity and peace.
    So I just want to conclude by saying, when people ask, 
well, show us evidence of success, I think what we are 
experiencing, this multifaceted effort, which is bipartisan in 
quality, Republicans and Democrats, the administration and 
others, underscored at the Shangri-La Dialogue, have seen many 
elements that are coming into play. First, very strong 
statements of American purpose, that it is in the national 
interest to sustain freedom of navigation, peaceful resolution 
of disputes; making clear that these issues are raised and 
discussed in an arena with allies and friends; making sure 
allies speak out independently; also taking steps to build more 
partnerships with countries in the region that are threatened 
by these steps, what we are doing in Vietnam and the 
Philippines is very important; and to make sure that our 
attention does not wane.
    We have difficulties here in the United States. I will tell 
you, gentlemen, that the issue that worries Asians the most 
right now is not what is going on in China but what is going on 
in Washington. They are most concerned about the conduct of our 
election and whether we are going to sustain our commitment to 
our allies, our defense, and trade going forward. That is going 
to be critical for us as we proceed into the 21st century.
    Thank you very much. I will stop there, Senator.
    [Dr. Campbell's prepared statement follows:]

              Prepared Statement of Dr. Kurt M. Campbell,

    Senator Gardner, Senator Cardin, it is an honor to testify today 
before the Senate Committee on Foreign Relations, East Asia 
Subcommittee, on the recent developments in and future U.S. policy for 
the South China Sea. I commend your leadership on U.S. national 
security priorities in Asia and welcome the opportunity to discuss the 
way forward. Yesterday was a historic day, with the Permanent Court of 
Arbitration issuing an expansive and much-anticipated ruling in the 
Philippines vs. China case. The long-awaited ruling is a triumph for 
the rule of law as a tool of peaceful dispute management in this vital 
waterway. But it also lays bare the need for the United States to 
remain deeply engaged in the South China Sea, drawing upon all 
instruments of national power if the South China Sea is to remain a 
peaceful and prosperous part of the global commons. These disputes are 
not simply sovereignty standoffs over uninhabited territories; they 
raise fundamental questions about the nature of the rules-based 
international order in Asia in the 21st century. The United States and 
its partners must answer those questions with determination and clarity 
if they seek to preserve that order and U.S. leadership in Asia in the 
years and decades to come.
                  u.s. interests and china's strategy
    The United States has several clear national interests in the South 
China Sea. The first is commerce and freedom of the seas. Five trillion 
dollars worth of trade passes through the South China Sea annually, 
with a quarter of this bound for the United States. The same shipping 
routes are also the economic lifelines for regional partners who are 
dependent on the South China Sea for trade and energy. Inextricable 
from this is the U.S. interest in freedom of the seas. In the early 
days of the republic, the U.S. Navy was created to protect American 
commercial interests abroad, and the principle of freedom of the seas 
has been a closely held national interest ever since. Freedom of the 
seas comprises all those freedoms that are guaranteed by international 
law, including, but not limited to freedom of navigation and freedom of 
overflight. American economic security depends on the ability of all 
nations to use the global commons freely.
    Second, the United States has an abiding national interest in the 
security of its treaty allies. The Philippines, which sits on the front 
lines of the South China Sea disputes and has longstanding claims there 
is the most directly involved. But so too are the direct interests of 
treaty allies, including Japan, Australia, and South Korea. As part of 
the Pivot to Asia, the United States has also strengthened its ties 
with Vietnam, Malaysia, and Indonesia, all of which have abiding 
interests in the South China Sea. And we remain committed to the 
security of Taiwan, which is also a claimant. If the United States is 
to assure its allies of its security guarantees, it must be deeply 
engaged in the quickly evolving dynamics in the South China Sea.
    Third, the United States has long maintained an interest in 
preserving peace and stability in East Asia. This has been a guiding 
principle of U.S. strategy for decades, as it is essential to securing 
its other interests. China's recent maritime assertiveness is of 
particular concern for this reason. Like many other South China Sea 
claimants, Beijing's sovereignty claims are not new. But as a result of 
its rapid rise, China has gained the ability to press those claims and 
has been doing so in an aggressive manner. From its land reclamation 
and installation of military facilities in the South China Sea, to its 
pressure on Japan's administration of the Senkaku Islands in the East 
China Sea, China appears to be quickly expanding its reach in the 
waters close to its shores. Particularly worrisome is the fact that 
China has attempted to impose so-called ``military alert zones,'' which 
seek to hive off international waters and airspace around its 
artificial islands, despite the fact that these territories are not so 
entitled under international law. Many speculate that Beijing wants to 
be able to maneuver unimpeded inside the First Island Chain and beyond, 
and to limit the ability of others to do the same. If true, there is 
little question that these objectives are dangerous and destabilizing 
for the United States and all trading nations.
    Now, the United States and China can and must cooperate in areas of 
mutual interest, such as on climate change and the Iran nuclear deal, 
but the developments of the last few years are concerning, and pose 
challenges to the United States' longstanding regional priorities. 
China's actions pose a unique challenge because the United States does 
not have sovereignty claims in the South China Sea, yet has an abiding 
interest in it remaining a peaceful part of the global commons. 
Further, China's activities raise real questions about whether or not 
Beijing intends to play by the rules of the global order--the very 
order that has helped to facilitate its rise.
             current lines of effort in the south china sea
    U.S. policy in the South China Sea rightly recognizes that we must 
work closely with regional partners if we are to succeed in our 
objectives of preserving the rules-based order. As part of its Pivot or 
Rebalance to Asia, the Obama Administration has pursued a whole-of-
government approach to the South China Sea. The administration has 
transformed its partnerships, beginning with its relationship with 
ASEAN, engaging more broadly and deeply with the organization than ever 
before. Those efforts are bearing fruit: In their February joint 
statement with President Obama at Sunnylands, ASEAN leaders expressed 
their support for the UN Convention on the Law of the Sea and use of 
international law to resolve disputes. They have also raised concerns 
about challenges to freedom of navigation and overflight in the region. 
These statements will not halt China's maritime assertiveness, but they 
represent considerable progress for the consensus-based ASEAN, and 
demonstrate that China is beginning to pay some regional reputational 
costs for its actions. As the tribunal decision has approached, 
however, China has sought to scuttle ASEAN consensus in support of the 
ruling, which serves as a reminder that we must remain closely and 
constantly engaged.
    The United States has also invested in its bilateral relationships 
with South China Sea states, forming new partnerships with Malaysia, 
Indonesia, and Vietnam, and most recently announcing an end to the 
Vietnam arms embargo. It has also overhauled its longstanding alliance 
with the Philippines and is finally able to press ahead with the 
implementation of the Enhanced Defense Cooperation Agreement, which 
will give the United States rotational base access to several military 
sites that abut the South China Sea. The administration has encouraged 
U.S. partners to build ties among themselves in hopes of realizing a 
more networked regional security architecture. Japan is working more 
closely with the Philippines and Vietnam; Vietnam and the Philippines 
are forging ties among themselves; Australia and South Korea have both 
been engaged in partner capacity building efforts in Southeast Asia. 
This serves as a reminder that America's partnerships are among its 
greatest assets, and that these relationships should continue to serve 
as force multipliers in this critical waterway.
    Recognizing the value of these partnerships, the Pentagon has begun 
to implement the Maritime Security Initiative, with the important 
support of this committee. This partner capacity building program seeks 
to help states improve their maritime domain awareness capabilities so 
that they can monitor their waters more effectively and share 
information with other actors. This program is laudable because it not 
only gives much-needed maritime aid, but because it encourages 
recipients to network those capabilities. In so doing it seeks to 
enable and empower regional partners to contribute to regional 
stability.
    As China has increased its island building activities, however, the 
administration has also rightly recognized the role of the U.S. 
military instrument in sending signals of deterrence and in upholding 
international law. In October 2015 it resumed Freedom of Navigation 
Operations in the South China Sea to contest China's spurious claims-as 
well as those of other claimants. It has been conducting regular aerial 
patrols, including from new locations in the Philippines. Importantly, 
the Pentagon has also been conducting significant presence operations 
in the South China Sea, including with the John C. Stennis carrier 
strike group. These operations are all necessary and valuable as the 
United States reinforces its interests and the global order in Asia, 
and this whole-of-government approach will remain vital in the months 
and years ahead.
                       the arbitration and beyond
    Yesterday's arbitration decision represents an important step 
forward in the United States' multifaceted approach to the South China 
Sea. Despite the fact that it is no match for China's economic or 
military might, the Philippines was able to obtain a resounding, 
unanimous judgment under the UN Convention on the Law of the Sea that 
should be viewed as legitimate by the region and the world. The 
tribunal's decision has injected important clarity into the disputes 
between the Philippines and China, substantially bounding their scope. 
The world now has a stronger sense of what constitutes legal activities 
and legal claims in the South China Sea, and this ruling may serve as 
important precedent for other claimants. This decision is binding on 
both parties, despite China's nonparticipation, and is now part of the 
body of international law. But the tribunal's decision also leaves 
important questions unresolved.
    We welcome this decision despite the fact that China has given 
notice that it will not comply with it. From its refusal to participate 
in the case in 2013, to its recent efforts to marshal global opinion 
against the judgment, to its reactions in the aftermath of the 
judgment, China has put the world on notice that it will not embrace 
this ruling. In all likelihood, it will not decamp from its artificial 
islands or cease its efforts to claim zones around them. A critical 
question for the United States and its partners, then, is how to 
legitimize this ruling and ensure that it has some power, given China's 
noncompliance? How do we help to ensure that after the Philippines has 
spent three long years in court, might does not ultimately make right 
in the South China Sea?
    Analysts have long worried that China will use the decision as an 
opportunity to declare an Air Defense Identification Zone in the South 
China Sea, as it did in the East China Sea in 2013. And in the last 
several months, there have been reports that China may intend to move 
into Scarborough Shoal, conduct land reclamation, and install military 
facilities at this location as it has on other land features. It could 
also take more incremental steps in an effort to establish some 
administrative authority in the Spratly Islands area, despite the 
court's ruling. These could include the declaration of baselines around 
the Spratly Islands, as it has announced in the Paracels, or some new 
form of domestic law or regulation that it seeks to apply to the area 
to try to justify some jurisdiction. If Beijing takes these actions, 
they will be aimed at its domestic audience as well as an international 
one, and will seek to send signals to China's people that it will not 
relent on its sovereignty claims despite an adverse decision.
    China may not embrace the Permanent Court of Arbitration ruling, 
but it is still subject to the court of international opinion and 
sensitive to its judgments. This administration and the next will need 
to take concrete steps to ensure that the decision has lasting power 
and that South China Sea tensions do not escalate. These include the 
following:
1. Conduct Robust Public Diplomacy in Support of the Decision.
    U.S. officials have already begun to express their strong support 
for this legal process, despite the fact that the United States is not 
a claimant. Officials from the executive and legislative branches 
should be conducting rigorous outreach to their counterparts in the 
region, reinforcing the significance of this process and decision and 
making plain what is at stake if it is not upheld. Washington should 
also support Track 1.5 efforts so that think tank and university 
scholars can amplify the official U.S. message in the region and 
beyond.
2. Warn China Against Taking Destabilizing Actions.
    U.S. policymakers at all levels must continue to impress upon 
Chinese counterparts in public and in private that an ADIZ declaration 
or land reclamation at new locations will be taken as dangerous and 
destabilizing, and would require a serious U.S. response. U.S. 
officials should also work with Chinese counterparts to discuss how 
they can make the most out of the PCA's extremely expansive ruling.
3. Seek Greater Internationalization of the South China Sea Disputes.
    This administration has made meaningful progress in engaging like-
minded, non- claimant countries on South China Sea issues. India is a 
prime example. The more countries speak out against artificial island 
building and militarization and in favor of freedom of navigation and 
overflight in the global commons, the more China will pay reputational 
costs for its noncompliance. Europe is mired in its own Brexit- induced 
crisis, but represents a natural partner in legitimizing the rule of 
law in the South China Sea. Indeed, in late May, France suggested that 
the E.U. might conduct occasional patrols of its own in the South China 
Sea. This should be welcomed and encouraged. In the coming months, the 
United States must engage with European partners and encourage them to 
play a constructive and vocal role in reinforcing the rules-based order 
in the South China Sea.
4. Encourage Other Claimants to Seek Arbitration.
    The PCA decision will have the farthest-reaching effects if it 
serves as precedent for other South China Sea claimants. The United 
States can help partners, including Vietnam and Malaysia, contemplate 
the value of arbitration with respect to their own maritime claims. The 
State Department should issue a paper that explores the potential 
implications of the tribunal's landmark decision for other claimants as 
part of its Limits in the Seas series. It should also engage closely 
with regional counterparts in other claimant countries to build a 
common understanding of how this decision may affect other claims.
5. Set Concrete Goals for the Maritime Security Initiative.
    The Department of Defense and the U.S. Senate should both be 
commended for their commitment to partner capacity building in the 
Asia-Pacific region. If the program is to succeed in meaningfully 
improving maritime domain awareness, it will need to set specific goals 
and benchmarks. The Pentagon and Congress should work together to 
determine what they hope to see from MSI five years from now, to 
identify intermediate objectives, and the steps the United States and 
its partners will need to take to achieve them. Additionally, the 
United States will need to ensure that newer partners, like Vietnam and 
Malaysia, as well as longstanding ones, like the Philippines, know how 
to take advantage of this aid and can put it to good use. Just as 
important, the United States will need to sustain a parallel diplomatic 
initiative to ensure that recipients of MSI aid commit to building the 
trust necessary amongst themselves to share the critical information 
they obtain through MDA platforms. This effort is not just about 
sharing technology, but building the political will to support it.
6. Issue an Interagency Report on the Rebalance and the South China 
        Sea.
    Like the Rebalance itself, the United States approach to the South 
China Sea employs multiple instruments of national power and is an 
interagency effort. A new administration will be better able to explain 
its progress to Congress, the American people, and to regional partners 
if it issues an annual Rebalance report, detailing its progress and 
laying out objectives for the following year. That report should 
include a special section on the South China Sea and would improve 
accountability and oversight for the many stakeholders in the next 
administration's Asia policy.
7. Reinforce the Decision with Freedom of Navigation Operations--
        Quietly.
    The tribunal decision has provided some important clarity on the 
status of land features in the South China Sea. Going forward, the 
United States should reinforce the decision through its conduct of 
FONOPS, making manifest that it does not recognize territorial seas or 
airspace around those features that have been ruled to be low-tide 
elevations. This is one of the clearest ways that we can communicate to 
China that the rule of law will rule in the South China Sea, even if 
China does not embrace the ruling. Washington need not publicize these 
operations or conduct them with much fanfare, however, given the 
expansiveness of yesterday's ruling and China's need to save some face 
in its aftermath. The United States must nonetheless make good on its 
pledge to fly, sail, and operate wherever international law allows, and 
to encourage partners to do the same.
8. Ratify UNCLOS.
    This administration and many before it have recognized a clear U.S. 
national interest in ratifying the UN Convention on the Law of the Sea. 
Our top military leaders, including those who are on the front lines of 
Asia's maritime disputes, including Admirals Harry Harris and John 
Richardson, have given this treaty their full-throated endorsement. We 
are approaching a watershed moment and it is no longer enough to 
profess our respect for UNCLOS as customary international law. If the 
United States truly seeks to reinforce the existing rules-based order 
in maritime Asia, it cannot remain outside of this critical part of the 
global architecture. It must lead from within.
9. Stay the Course in Asia.
    Amidst many competing claims for international attention and 
concern over the underlying domestic consensus in the United States for 
continuing robust engagement in Asia, it is of manifest importance that 
the United States remain principally engaged in the region going 
forward. Purposeful involvement from Japan to Korea, China to Southeast 
Asia, Australia to India will send a reassuring message to a region in 
doubt about the future. The lion's share of the history of the 21st 
Century will be written in Asia, and the United States must contribute 
responsibly and constructively to this developing narrative.
    I harbor no illusions that meaningful progress on these disputes 
will be easy, and I know my distinguished colleagues in this chamber 
share this concern. But yesterday's decision is a reminder that there 
are rules-based responses to these immense geopolitical challenges, and 
the United States is far better positioned to confront them than it was 
seven years ago. With a whole-of-government approach and alongside our 
indispensable regional partners, we can safeguard U.S. interests in the 
South China Sea and reinforce the international order in Asia.


    Senator Gardner. Thank you, Dr. Campbell.
    I know we are approaching the time for the vote, so I will 
keep my questions short so we can get to Senator Cardin and 
other members who are attending today.
    Obviously, there is a lot of discussion that we have to 
have in light of the tribunal decision yesterday, this very 
strong decision that goes to the very heart of a rules-based 
system and a rules-based order of international law, and 
nations that are obviously rising powers and a power in and of 
themselves, whether they are going to be a part of that rules-
based system or flout those rules and continue to ignore the 
very law that they agree to.
    So I want to get into what you believe the next steps are 
for China. But before I do that, I want to just ask this 
question.
    What consequence should be carried out right now for 
China's activities? If you just have a ruling that is ignored, 
it is only as good as the paper that they issued in the press 
release yesterday. What consequence, what act of reparation, 
should take place for violation of the sovereign rights?
    Admiral Blair. I think some people do not understand the 
price that China is already paying by the actions that it has 
been taking. When it began these individual island reclamations 
and drilling rig deployments and maritime militia deployments, 
it expected the other countries of the region to roll over and 
say, ``Oh, China, you are big. Here, go ahead and take this 
island. We cede the sovereignty.''
    Nothing of that sort happened. In fact, what has happened 
is the countries of the region have begun to spend more on 
their own defense. They have reached out to other countries 
like the United States and Japan. And China is paying an 
extremely heavy price militarily. These countries have opened 
up access to their ports and airfields to the United States.
    If you ask me, as the former Commander in Chief of the 
Pacific Command, which would I rather have, five islands that 
have airbases or access to seven airbases in the Philippines, 
ports and airfields in Vietnam, as far as serious military 
capability in the region, I would take the access that we have 
gained from the other countries in rather China's relatively 
vulnerable built-up islands every time.
    So China has paid a high price. Now it is paying one more 
price as the Permanent Court of Arbitration has discredited the 
nine-dash line, which has basically been the basis of all 
Chinese claims.
    So the hill is getting steeper and steeper for China. And 
my experience with the Chinese is they are practical people. 
When it gets too steep, they will think of something else. I 
think if you look at Chinese actions over the last 6 or 7 
months, they, in fact, have been tapering off from the 
aggressive activities of last year or 2.
    So let's hope that in the rhetoric of the other countries, 
the United States, the Philippines and Vietnam, we leave China 
some room to back itself off the ledge in its own way, and 
China realizes it is in its interests that there is another way 
to support its interests rather than these blatant, naked 
militarily based aggressive forces. If that happens, then we 
have something to work with.
    So I think we have to watch China's reaction. If not, then 
we can take some stiffer actions ourselves.
    Senator Gardner. Dr. Campbell?
    Dr. Campbell. I really like Admiral Blair's answer. I would 
stand behind him on that. I think that is good. It is prudent. 
It is careful.
    There are other costs as well, though, that are being paid. 
So we often think about our own challenges and troubles here in 
the United States. President Xi is trying to do a lot of things 
right now in China. He has essentially dismantled collective 
leadership in China. He makes all the decisions.
    He is involved in a massive effort to try to retool the 
Chinese economy, to move it more from just export-led, state-
driven growth to more consumer-led. It is a very hard 
challenge. It is going to take years. It should be taking all 
of his time, frankly. A lot of party issues he is trying to 
work on.
    And I think it is undeniable that he is trying to use 
nationalism to kind of propel his efforts forward. I think this 
is actually part of this effort.
    One of the things that is striking, and I think those of 
you who visited China know this, you can talk to people across-
the-board, hard-liners, democrats, others. There is pretty much 
uniform view around these issues. They take the Chinese line on 
the South China Sea.
    So I think, in a way, Xi tried to use these to basically 
assist in the nationalist drive in his own domestic efforts. 
But now I think, in some respects, he has now faced with 
international opposition from the tribunal, strong support from 
others, and the kind of steps that Admiral Blair indicates. I 
do not think it has gone in the direction that he had hoped.
    Very few countries are better at changing approaches 
carefully. They may not signal it in public. They may not say, 
``Our bad. We are going to move away.'' But I think what 
Admiral Blair indicates is the case here. I think, over time, 
China will start to adjust its position because they will 
realize that, right now, it is not in their best strategic 
interests.
    Senator Gardner. Thank you.
    Senator Cardin?
    Senator Cardin. Admiral Blair, I understand what you said, 
that China did not anticipate that the regional and 
international resolve would be as strong as it has been in 
reaction to their unilateral activities, but they are not 
changing their actions. They are continuing to make their 
assertions. They have certainly seen very direct military 
actions in regard to the China seas, so I am not sure that the 
international reaction has changed the calculation in China.
    The second point is that now with the ruling from the 
tribunal, I think we are playing on a different level now. We 
have a ruling. It is going to be likely ignored at least in the 
short term by China. And if their statements are accurate, they 
will probably do something that will demonstrate their 
sovereignty over this area by additional building or activities 
or military actions.
    So I am not sure they have paid a price for their 
activities to date. And I can tell you that the countries of 
the region, this is what they focus on. This is their issue, 
maritime security. For the United States, obviously, it is a 
critical point for many, many reasons.
    Couple that with the fact that ASEAN, an organization that 
was set up at the end of the interregional Southeast Asia 
conflicts, is being pretty much discredited by China.
    How should the United States and our alliance partners 
respond to the next wave of activities that are likely to come 
from China that disregard the ruling that we saw yesterday?
    Admiral Blair. Senator, the ruling only took place 
yesterday, so it is a little quick for China to react.
    Senator Cardin. They knew it was coming yesterday. They 
were prepared.
    Admiral Blair. Well, clearly, what they were prepared for 
was a much more favorable ruling than what they got. If you 
look at their----
    Senator Cardin. They should hire different lawyers if they 
thought they were going to get different results.
    Admiral Blair. Well, they are not the only country that has 
wish-think as part of its policy sometimes.
    But, no, the talking points that they are running on now 
were written a week ago. They could have been written a month 
ago. I think it is important to look at actions rather than the 
immediate----
    Senator Cardin. Well, we have had actions. We have military 
airfields that have been built. We have rocks that have been 
turned into military assets. We have----
    Admiral Blair. Well, you need to be careful there, Senator, 
because those facilities in the Spratlys, as opposed to the 
Paracels, which are up north and much closer to China, are 
currently potential military assets--10,000-foot runways, POL 
storage, ports, logistics facilities.
    But President Xi, when he was here last September, said he 
has no intention of militarizing those potential assets in the 
Spratlys. Militarization would involve the deployment of 
uniformed forces and military equipment there. And so far, 
China has been true to its word.
    I saw a news report this morning that aircraft visited some 
of those Spratly Islands, but they were civil aircraft. They 
were not military aircraft. The one military aircraft that has 
been there in the past 9 months was for a medevac to take an 
injured----
    Senator Cardin. They changed the landscape to have Chinese 
presence on an area that is contested.
    Admiral Blair. I do not want to be an apologist for China, 
but those were features which China had already occupied. They 
made them bigger.
    Senator Cardin. But they changed them.
    Admiral Blair. Yes, they made them bigger, and they put 
potential military capability on them. But they have not 
militarized them in the sense of putting antiaircraft batteries 
and----
    Senator Cardin. How long would that take to change?
    Admiral Blair. Well, it has not happened yet, which is, I 
think, significant.
    Senator Cardin. But if you are a country in that region, 
knowing what they have done there, as far as not only 
jeopardizing your territorial claims, but also giving a 
beachhead in the event they decide to be even more aggressive, 
wouldn't you, if you were the military adviser to that country, 
tell them that they are at higher risk today than they were 
before?
    Admiral Blair. I pretty much would do what the Philippines 
and Vietnam have done, which is invite the United States to use 
our bases that are on land and much more powerful and capable.
    Senator Cardin. I do not mean to shortcut your answer. You 
are saying there is nothing direct you would think that the 
United States and our willing partners should be considering 
other than what we have done in the past?
    Admiral Blair. No, as I said in my statement, I think we 
should be prepared to take military action on Scarborough Shoal 
if China should undertake some of the same activities that it 
has undertaken in Subi Reef and the others. We should draw the 
line there.
    I think we should be taking advantage of the ruling to 
foster a multilateral solution of the settlement of the 
contending claims with or without China, and then we should use 
our military power to support that solution.
    Right now, we do not have a specific position so that we 
can use our military power to support our diplomacy. We just 
conduct freedom of navigation exercises, which are fine, 
military maneuvers. I think we need to draw some specific lines 
and encourage China to compromise on some of its objectives, as 
they have in other regions, as I said.
    Dr. Campbell. Senator, could I just amplify on the things 
to really be concerned by? I think Admiral Blair is giving you 
a very good laydown.
    The key here is some of the steps that China has taken are 
on islands that they have held for decades, right? The question 
really from here on out is, are they going to take steps on 
islands that they have not had previous control or access to? 
That is why there is so much focus on the Scarborough Shoal.
    If I may, just something to think about, the real issues 
that I think the United States has to be concerned by are 
challenges to American or international overflight over this 
area, or ships that their passage is contested. Those are the 
areas where the United States has to be much firmer and much 
clearer, and we need to get other partner countries to exercise 
the rights of free passage and open access in a manner that 
makes clear that this determination to try to turn the South 
China Sea--it is not so much the island dots. It is the effort 
to turn it into territorial waters that denies international 
open access of the kind that we have underwritten for decades, 
and it is the very base of international trade and commerce.
    Senator Cardin. Just so I understand, the Obama 
administration has been doing that.
    Dr. Campbell. Yes.
    Senator Cardin. Are you suggesting they need to do more?
    Dr. Campbell. No, in fact--and thank you, Senator Cardin. I 
think you missed a little bit when you were out.
    I think I would suggest that this is a bipartisan success, 
that what you see are multiple efforts led by the 
administration, but supported elsewhere, that involve 
diplomacy, that involve working with our allies, building up 
partner capacity, taking a very strong position in 
international organizations, supporting the rule of law, and 
also articulating publicly what it is that we stand for.
    Senator Cardin. I understand the verbiage. I am talking 
about action. When you do flyovers, when you put our vessels in 
the territorial waters themselves to challenge their free 
navigation, that is action.
    Dr. Campbell. Yes, very much. I think I would suggest, and 
I would like to hear Admiral Blair on this, the real thing here 
is to make this a normal element of our practice, that it is 
not considered something that we do occasionally. It has to be 
exercised regularly. It has to become a common feature of our 
forward engagement and deployment.
    Senator Cardin. Thank you.
    Senator Rubio. [Presiding] Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Campbell, as you talked about, further integration of 
the world economy has been incredibly beneficial to China, as 
it has been for Russia. My question is, based on that fact, why 
does Russia engage in its aggression? Why is China engaged in 
such provocative action?
    I agree with you. This undermines their long-term 
objectives of becoming more of a consumer society, becoming a 
more healthy economy. You mentioned nationalism. I think, to a 
certain extent, that drives Putin's calculations as well.
    But again, why are they doing this when a cooperative 
attitude within the South China Sea, from my standpoint, would 
be, short-term and long-term, more beneficial to them? Can you 
explain that to me?
    Admiral Blair?
    Admiral Blair. Well, I think, Senator, what they want is 
both. They want to have their strong control of this area that 
they call the first island chain, in which all military 
activity is done with their permission. That would mean no 
American reconnaissance flights. That would mean no American 
survey flights. And they want to have a strong consumer economy 
that other countries will have to deal with.
    So not unlike other countries, they are looking for the 
best of both worlds, as long as they can get it. Frankly, until 
very recently, they have been able to get it.
    Senator Johnson. So that would be my next question then. 
Why do they think they can get away with what they are doing?
    Admiral Blair. Because they have for several years in the 
past. Look at----
    Senator Johnson. So we have not shown the strength and 
resolve mecessary to deter their actions?
    Admiral Blair. Since we have not set any individual limits, 
we have had a general policy of, ``We do not take a position, 
but don't you do anything.'' They have operated below the level 
of that warning in order to make gains.
    I think that final thing is, I think the character of a 
country's international policy bears a large resemblance to its 
internal policy. Inside China, as you know, power is what 
controls. Not laws, not precedents. If you have the power, then 
you get the best of everything.
    China applies the same approach to its relations with its 
neighbors. And to the extent that it can be successful, it will 
continue to do it.
    Senator Johnson. I would like to have you answer, but I do 
want to reserve time because I want to ask what position we 
should take.
    But, Mr. Campbell, if you would like to respond to my first 
question?
    Dr. Campbell. Just to answer a couple things, if I can, 
Senator Johnson. It is a very important question.
    The interesting thing is, when you sit down and actually 
really discuss with China interlocutors about this, one of the 
first issues that they will raise is the Monroe Doctrine. They 
will say what about your role in your own hemisphere? Of 
course, our answer is that was then, this is now, a very 
different, a very different time. That is sometimes 
unpersuasive to Chinese friends.
    It is not uncommon that rising great powers, particularly 
when they are authoritarian-led, seek these spheres of 
influence. They believe that they are ultimately beneficial, 
and they protect a ruling elite that is anxious about their 
legitimacy. I just think that is not uncommon.
    I do also want to say one of the things--what is very 
different here than the Cold War is that every single one of 
these countries, yes, they are working more and more with the 
United States. We should be under no illusions. They all want a 
better relationship with China because of dramatic commercial 
interests and ties. I will say at the root of this, really, is 
the United States has to do much more in the Asia-Pacific 
region.
    If you look back, the dominant issues of this period, 
historically, will not be Iraq, will not be Afghanistan, will 
not be all the blood and treasure that we have spent. It will 
be the rise of Asia. We are not nearly focused on this enough. 
And the lion share of the history of this century is going to 
be written, in the 21st century, is our executive branch, our 
Congress, our big institutions have not yet recognized, have 
not yet really made the rebalance, or the pivot, a way of 
American engagement in the world.
    Senator Johnson. So what should our position be, and what 
actions should we take?
    Admiral Blair?
    Admiral Blair. Senator, I would talk a little bit 
differently about our maritime interests in the region. You 
have heard several people at this hearing talk about the volume 
of shipping that goes through there. China has no interest in 
interfering with that shipping. Most of it goes to China 
anyway.
    Short of total war, no country has figured out yet how to 
apply selective pressure to shipping lanes anyway. So it is 
impractical.
    What is really important is the American ability to 
maneuver its military forces in that region of the world, which 
we have done ever since 1898. It has basically been in support 
of ensuring that a power hostile to the United States or 
destabilizing to the region does not gain dominance, in a 
sense. We have thrown our weight in, whether it was against 
Japan when it militarily took the region, whether it was in 
Vietnam. At least in the opening phases of the Vietnam War, we 
thought North Vietnamese was an expansion of worldwide 
communism.
    So our overriding interest is to be able to use our 
military forces to support our interests in that region. China 
challenges that with a very expansive interpretation of what an 
EEZ means. To China, having an EEZ means that you control the 
military activities within it. They object violently to our 
reconnaissance flights.
    When I was Pacific Commander in Chief we had the EP3 
incident when they actually ran into one of our aircraft, a 
Chinese fighter did. Later, they cut cables of our survey 
ships.
    So I think what we have to do is have a steady, robust 
American military exercise and operating presence in the South 
China Sea to show that China will not be able to restrict us. 
That is number one.
    Senator Johnson. So our position should be to state our 
interests clearly. This is what we are going to do, and then we 
need to do it. And this would be a good time to start.
    Admiral Blair. Let's do it. Yes, sir.
    And I think that is more important than whether we run a 
particular destroyer within 3 miles or 4 miles of a particular 
rock. I think what is important is that the United States 
freely operates its air, naval, and, if necessary, its ground 
forces in that part of the world. And we do not need anybody's 
permission to do it, and we have allies and friends we support 
there. So that is kind of number one.
    Senator Johnson. So state it clearly and operate regularly.
    Admiral Blair. Yes.
    Dr. Campbell. Senator, just to underscore, we are doing 
that, and we should just continue it going forward.
    I will also just say one of the big deterrents that we have 
not discussed is that if there are tensions or conflicts in the 
South China Sea, the first thing that will happen is insurance 
premiums for shipping will go through the roof. That is very 
bad for China and very bad for other shipping and receiving 
nations. It is the last thing that they want to see.
    So that, among everything else, really animates a lot of 
actions.
    Senator Gardner. [Presiding] Senator Rubio?
    Senator Rubio. First of all, thank you both for being here.
    This is actually a pretty big moment in international 
relations, I think, for our country. I think you would both 
agree with that. For people who are going to watch or are 
thinking about this issue, the first thing, and I think you 
both touched on this in your statements, is freedom of 
navigation of the seas has been the linchpin of this economic 
growth and prosperity that we have seen in the post-Second 
World War era. That is particularly true of the Asia-Pacific 
region. The South China Sea, in particular, I believe, the last 
time I checked, is a place where a significant percentage of 
global commerce is now transiting through.
    So this matters in real-time to people in this country. I 
guarantee you there are things in this room right now that came 
to this country as they transited through the South China Sea, 
and vice versa, for our exports. So this is incredibly 
important.
    What China is basically challenging is that world order. 
What China is basically doing here is they are challenging the 
idea that there is such a thing as freedom of navigation.
    They have challenged this particular sea for a long time. 
If you look at their passports, for a long, long time, that 
nine-dash line was on there. They have claimed that they own 
this, among other places, for a very long time. Now they are 
beginning to act on it. So that is the first part.
    Now, let me preface this by saying I have no quarrel with 
the Chinese people, who I believe are great people who by and 
large have the desire to move forward with prosperity and with 
their lives, and we engage with them constantly. I have no 
quarrel with China. I have a big quarrel with the Chinese 
Communist Party, which I believe is more interested in the 
future security of the Chinese Communist Party than they are of 
the nation itself.
    This is a country who views all their neighbors as 
tributary states that need to be subservient to China. This is 
a country that views the United States as a declining power. 
They make the argument to the countries in the region that 
America cannot be counted on to live up to its security 
assurances. That is why this is such a critical moment.
    By the way, this is also illustrative of another point, and 
that is all these international things that China signs on to, 
they are signatories to the Law of the Sea Treaty. They agreed 
to this process by which they lost under and now they view as 
illegitimate.
    So how can we trust them on anything they sign when they 
are willing to ignore it? This is a big, big problem.
    And I think and I hope that the position of the 
administration and the next administration will be that we will 
never accept these arguments; that there will be no part of 
these illegitimately claimed areas that we will not sail 
through and challenge; that we will never accept it as a matter 
of course, whether it is the air defense zone that they have 
claimed or this illegitimate claim that they make now.
    Mr. Campbell, you were one of the architects of the so-
called pivot to Asia, and you have written extensively about 
this policy. So I would just ask you, and I think you have 
touched on this already, but what is your assessment of the 
success of this policy after 5 years after it was announced, 
specifically? And what needs to be done next?
    And on that point, I want to make one editorial comment, in 
addition to the 2.5-minute editorial comment I just made, which 
is this is why the defense sequester is so crazy. It is nuts, 
because we need to be able to fund our ability to project power 
in the region, because in the end, all the diplomatic rhetoric, 
all the speeches from the Senate, are worthless if we do not 
have the physical capability to deliver on our security 
assurances that we have made to our allies in the region, in 
South Korea, Japan, the Philippines, and others.
    But what is your assessment, Mr. Campbell, of the state of 
affairs on the pivot to Asia? And what is the next iteration of 
it moving forward as we go into a new administration and new 
Congress?
    Dr. Campbell. Thank you very much, Senator. I appreciate 
the question, and thank you for your service.
    I will say I do not mean any harm by this, but I will say 
what I appreciated very much is how open your office was to us. 
You asked us to come up to be briefed about Asia, asked very 
good questions. You challenged us a lot, but you also were very 
respectful.
    I actually would say one of the most important things that 
we are going to need to sustain to be effective in Asia is to 
maintain a bipartisan commitment. That is incredibly difficult, 
but I think you all, each in your own way, have laid out the 
enormous American stakes on what is involved here and the need 
to do more.
    Look, I think the rebalance or pivot is proceeding in fits 
and starts, to be honest. Part of that is that we have a lot of 
domestic issues. It is impossible to leave the Middle East and 
South Asia, given what is going on now. That is where the focus 
really is.
    So you have to find time in other parts of the schedule to 
make sure that strategic focus comes from key Senators. Very 
grateful for the team that came to Shangri-La. Very much 
noticed by friends in the region as a whole.
    I think the administration has done a pretty good job in 
trying to make clear that this is where our future lies, but we 
are going to have to do much more.
    I agree with you about sequester. I would like to see much 
more active diplomatic engagement, generally. Really, at the 
base of much of this, I know we focus mostly on the military 
dimension, but a lot of this is a diplomatic game. We have to 
be very effective in terms of how we pursue our interests.
    No American politician in the last 25 years has given a 
speech in America about why Asia is important. We have not 
tried to convince our American people about what we are about. 
There have been hundreds and thousands of speeches about 
Falluja and Iraq and Afghanistan, all important, but no one has 
said, you know, this is why we engage, this is why we are out 
there. We give those speeches in Asia. We do not do them at 
home.
    So I think we have our work cut out for us. And we had, at 
the beginning of this administration, a little childish back 
and forth, where some would say we are back in Asia and others 
would say, no, we never left.
    Senator Rubio, I would take a position that both are wrong. 
For us to be back in Asia is going to take decades. It is going 
to take multiple Presidents, deep, substantial engagement. And 
for us to say we never left Asia, the price of admittance has 
gone up dramatically. What used to pass for effective diplomacy 
and military engagement, 15 or 20 years ago, will not get it 
done, will not get it done today.
    Now, as we speak, we have two aircraft carriers in the 
Asia-Pacific region deployed. That should be a regular part of 
our engagement, not something that happens occasionally.
    So I commend you on the work that you have done to try to 
undo the sequester. And I also want to see you continue your 
role of really focusing on the Asia-Pacific region. I will do 
everything I can to support that.
    Thanks, Senator.
    Admiral Blair. Senator Rubio, I listened carefully to what 
you said. I think one thing you perhaps are missing about the 
Chinese people is that they are, whether the Communist Party 
whips them up or not, extremely nationalistic and feel that 
China's destiny is much larger than what it currently is.
    They believe that, for the last 150 years, they were 
physically carved up by outside countries, notably Japan, but 
also a large number of European countries and even the United 
States.
    Now they have become the second-largest economy in the 
world. They have grown tremendously, and they feel their time 
has come. And they feel their time has come in a pretty crude 
way, which means that they should be the number one dog in 
their part of the world and everybody else should adjust.
    So I think this is deeper than just the Chinese Communist 
Party, which is ruling them. And it is pretty understandable, 
in terms of their history.
    So I think what the United States does has to deal with 
what I think are national feelings and desires by presenting 
military situations in which the costs of aggression are too 
high, channel that great Chinese energy which we have seen in 
so many other countries, Chinese-American citizens here in the 
United States, Taiwan, Singapore, other very vibrant Chinese 
companies, into an area in which they can make tremendous 
advances by their economic prowess, by their cultural 
attainments.
    But we have to set some military lines that say this far 
and no further. Then I think we can move forward properly.
    Senator Rubio. Admiral, I agree with you on their 
nationalistic attitude and their view of history, the last 
hundred years has been an aberration. I understand all of that, 
and I do not disagree with your statement about that being a 
powerful sentiment in China.
    I would only add that I think the people in Korea and the 
people in Japan have their own ambitions for the future, and 
that is not to be a tributary state to China.
    I would also add that I want China to be prosperous. I 
would love to have them as a partner on all these major issues 
we confront around the world. Imagine what a responsible 
Chinese Government and the U.S. could do on the issues of 
global jihadism and so forth.
    I can tell you what is going to be a big problem, and that 
is if that nationalism leads them to continue to steal secrets 
from our companies and our military in order to cut corners, if 
they aggressively act to take over international waters, and if 
they do to other places what they have done to Hong Kong or 
what they do now in the gross human rights violations.
    If they treat their own people that way, just imagine what 
they would do to other people, if they gained any sort of power 
and control over them. And that cannot happen. That would be a 
major, major problem.
    Admiral Blair. I think we are in violent agreement there, 
Senator.
    Senator Gardner. Thank you, Senator Rubio. We are coming up 
on the time we are going to have to adjourn. I just again want 
to reiterate something that Senator Rubio mentioned, actually.
    When he was talking about China being a participant in 
UNCLOS and talking about how we cannot trust China in anything 
they sign because of their defiance of the law that they agreed 
to.
    But I think, in many respects, we have a moment when the 
United States is going to be asked that very question by our 
allies. If China continues to violate the Philippines, this 
ruling, and other claimants in the area, then the question our 
allies in the region will once again pose to the United States 
is how can we trust anything that you say when you are not 
willing to come to our aid to back up what you have agreed to 
do with us.
    That is why it is so important that we continue to 
reiterate and reinforce our expressions of mutual defense and 
the mutual alliances that we have together, whether that is the 
Philippines, whether that is Japan, Korea, Taiwan. It is very 
important that we continue to show our allies that we are 
committed to not just say that we will abide by them, but that 
we will, indeed, act when called upon and as necessary and 
needed.
    One of the things I wanted to get into, though, is what is 
next for the Philippines. The ruling comes down. The tribunal 
comes down. What next? Where does President Duterte go? What 
happens with the Philippines, now that they have this ruling?
    Admiral Blair, Dr. Campbell, whoever prefers.
    Admiral Blair. I think that an equitable solution of the 
claims in the South China Sea is going to be a long and 
difficult matter just because of the tangled nature of the 
claims there.
    If you look at the Spratlys color-coded to show which 
country currently occupies which island, it looks like a bad 
case of Technicolor measles. As you know, they are all 
intertwined. The idea that you can say, well, you move off this 
island, you move off that island, and let's draw some nice 
lines is, I think, pretty impractical.
    I think that it will take some imagination to come up with 
a multilateral settlement of claims, which gives China a 
recognition of some of its legitimate claims, which are 
generally further north in the South China Sea, which divvies 
up the Spratlys in an equitable format.
    I think that there should be internationalization of some 
islands, which can be used by all; I think there should be 
joint development areas in which fishing activities are shared 
and hydrocarbon development revenues are divided up among the 
states; I think further work is needed on turning the 
declaration of conduct back in 2002 into a code of conduct in 
which there are peaceful expectations on all sides. I think 
that is the work of years.
    But I think underlying progress has to be what we have been 
talking about here for the last hour, which is a recognition by 
China that it cannot gain by military aggressive, coercive 
means what it wishes. To do so will take a continuation of the 
recent stiffening of American policy along with smart policies 
by the other countries, and presenting that more united front 
to China.
    ASEAN's role has been mixed. Sometimes, they have not done 
much. Other times, they have pulled themselves together and 
made some unified statements, which I think are positive.
    So it is that steady combination of military deterrence, 
patient diplomacy, imaginative negotiations, which I think the 
claimant states, starting with the Philippines, including 
Vietnam, Malaysia, ought to pursue.
    I very much feel, Chairman Gardner, this is a movie, not a 
snapshot, and we have to do a lot of work to have the movie 
have the right ending.
    Senator Gardner. Dr. Campbell, I would just ask you to 
follow up on that, but also perhaps to throw in a little bit of 
what you have heard from the other claimants in the area, what 
they might pursue now that this tribunal has ruled, if 
anything.
    Dr. Campbell. Thanks very much.
    Senator Gardner, just in respect to the last question, I 
will say, honestly, I think the ruling so exceeded what was 
expected, I think if you read previous tribunal decisions, 
sometimes it is hard to make out exactly what was decided. 
There was a little bit of this, a little bit of that.
    So in my view, I guess I agree with Admiral Blair on this 
question of, ``Oh, they must have anticipated this.'' I do not 
think anyone in the region anticipated it. This really was 
clear as a bell, in terms of animating some very important 
strategic purposes.
    So I do not think anyone was thinking about, gee, what do 
we do now in international law in advance of this ruling. So I 
think there are going to be a lot of important conversations 
that will take place in the coming months, and we should 
encourage this.
    Remember, this initial decision to go to The Hague was 
encouraged by a number of countries, including the United 
States.
    I would say I like the idea of imaginative solutions. We do 
have a few areas where countries have been able to share 
resources. The agreement between Taiwan and Japan on fishing 
was very important. There had been efforts to try to do this 
with China in the past. Usually you get down the line and then 
China says, well, of course, we will share some of these 
resources, but this is, of course, our territory, which then is 
a showstopper.
    The idea is to be able to take advantage of resources in 
circumstances where sovereignty and territoriality are not 
resolved, are not clear.
    I think the general point to recognize here is that, in 
diplomacy, there are areas that cannot be immediately resolved, 
and the best you can do is to have everyone, kind of cooler 
heads prevail, and then export some of these problems into the 
future where hopefully circumstances will be better.
    China's practice under that rubric to basically salami 
slice is really not in our best strategic interests. So we are 
going to have to be watching very carefully as we go forward, 
building capabilities.
    I mean, one of the things I am most proud of and that has 
really taken place is that there is a renaissance in the 
relationship between the United States and the Philippines. The 
Philippines are incredibly important in our own country.
    But ever since we left the base, we had about 20 years of 
very little strategic engagement. That has changed now. The 
U.S. military is re-embracing their comrades.
    Politically, the United States is less explosive in the 
Philippines. I think there is a recognition across the 
political spectrum that they want a better relationship with 
us. We have a legal instrument in which American forces can now 
deploy and act there, beyond the visiting forces agreement.
    These are all important steps. But I think the general 
recognition, Senator, is that we all look for immediate 
responses. Asia is the long game. Asia is the long game.
    So 2 years ago, when this legal process started, people 
pooh-poohed it. It is not important. It is too slow. It will 
not deliver the goods. Look at where we sit today--a 
substantial development, which I think will animate the actions 
of many countries around the region.
    Despite this very assertive stance on the part of the 
Chinese, I can tell you, behind the scenes, this has caused 
real concern about the conduct of their own strategy, and there 
will be those, carefully, that will be arguing for readjusting 
going forward.
    Senator Gardner. Actually, Senator Cardin is here. I have 
been going along.
    Do you have any additional questions for this panel?
    Senator Cardin. I have a lot but go ahead.
    Senator Gardner. The final question, should China proceed 
to Scarborough Shoal, or perhaps a blockade of a Philippines 
ship or action on the Second Thomas reef, what should the U.S. 
reaction or response be?
    Admiral Blair. If I can just make one preliminary point, 
Senator Gardner, we, of course, have an obligation to allies 
and partners, but allies and partners are perfectly ready to 
fight to the last American. We need to make sure that we do not 
want something more than they want it themselves, in terms of 
their actions.
    It is, I think, particularly important for you responsible 
members of Congress to make sure that this is not the United 
States doing things that allies should be, and friends and 
partners should be working on themselves. It has to be worked 
together, and we need to be aware of that.
    On Scarborough Shoal, I think if China lands troops, or 
brings in dredges to expand the reefs, we should remove them in 
support of the Philippines, with military force, if necessary.
    On Second Thomas Shoal, I think the situation is a little 
bit less clear. I would rather speak in a classified session 
about that one.
    Senator Gardner. Thank you.
    Dr. Campbell?
    Dr. Campbell. I will just add to that.
    Look, we have a strong security relationship with the 
Philippines. The conduct of our private diplomacy has become 
much more effective in the last couple of years, and I would 
anticipate that we will make very clear that we will stand with 
the Philippines.
    I do want to say that the most important diplomacy about to 
happen is the diplomacy between the Chinese and the 
Philippines, right? So that in many respects is a positive 
sign, the fact that the Chinese are reaching out. They want to 
see what kind of relationship--we have had our own private 
conversations with Duterte, the new President, and we will see 
how this plays out over time.
    But I think the Chinese have to understand that if they 
take the steps that the Admiral indicates, it will have a 
chilling effect across Asia and will undermine their interests 
in a way that no other action that China has taken in the last 
generation would.
    Senator Gardner. Thank you.
    Senator Cardin?
    Senator Cardin. I just have one final question, if I might. 
I do not want to get into a debate on the merits of the Law of 
the Sea Treaty and the Senate's ratification. I have already 
expressed myself. I am a strong supporter of it. I think the 
United States hurt itself by not ratifying the treaty.
    But I would like to just ask the narrow question as to the 
impact of us not being a member of the Law of the Sea as it 
relates to the repercussions of China not following the Law of 
the Sea and the United States active engagement in this issue 
as not being a member of the treaty.
    Dr. Campbell. I can just maybe answer on that. I 
appreciate, Senator Cardin, your leadership on efforts on the 
Law of the Sea. The Law of the Sea efforts over almost 30 years 
now, it is a little bit like Gallipoli, kind of run along the 
beach with the machine-gunners there. We have gotten close a 
couple times.
    I will tell you an interesting thing, and I will not go 
into names, but at the last go-round, the second to last, we 
tried this a few years ago. I was asked to testify. Some 
Senators asked questions about a ruling like the one we had 
yesterday and what if it then impinged on American interests, 
very much in the way of what has just taken place with China.
    So the concern was that we would sign ourselves onto a 
treaty where potentially an international group could rule on 
something that would impinge on our own sovereignty, which is 
what China has just experienced. I would say, personally, if we 
want to focus on the Asia-Pacific going forward, we are going 
to have to find a way to pass the Law of the Sea, because it 
does hurt us.
    And it is striking to us the Chinese have signed and they 
are obligated, but do not want to do it. We have not signed, 
but we want them to do it, right? So it is ironical to many in 
the region.
    What concerns us, though, is I am not sure what in the 
world could get 67 votes in the Senate now, right? If we put in 
something on motherhood, we would get maybe 62, 63, but there 
would be those who would raise real questions.
    Senator Cardin. We have gotten a lot of our bills passed by 
67. Our committee has a good record going. I do not think we 
would--we would see how we would do on that. It might be a 
challenge.
    Admiral Blair. I would add, Senator, that, to me, the 
biggest advantage of us joining the Law of the Sea would be to 
oppose the Chinese reinterpretation of what the rights of a 
country with an EEZ are. China is methodically, over time, 
attempting to give tremendous rights to EEZ countries to 
restrict military activities in a way that would be completely 
counter to U.S. interests.
    Right now, we have to rely on our friends who have signed 
the treaty, Japan, the United Kingdom, other strong maritime 
nations, to carry our water for us inside that treaty instead 
of providing the leadership we can.
    So I think it is absolutely vital.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Cardin.
    Senator Menendez, I think is participating in the next 
hearing as well, so that is the final, final question for you.
    I want to thank the witnesses for being here today. Thanks 
to everyone for attending today's hearing.
    For the information of members, the record will remain open 
until the close of business Friday, including for members to 
submit questions for the record.
    Please respond as promptly as possible, and your responses 
will be made a part of the record.
    With the thanks of the committee, this hearing is now 
adjourned, and we will proceed to the next hearing.
    [Whereupon, at 11:38 a.m., the hearing was adjourned.]


                              ----------                              




                                  <all>
</pre></body></html>
